<html>
<title> - RUSSIA, GEORGIA, AND THE RETURN OF POWER POLITICS</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





           RUSSIA, GEORGIA, AND THE RETURN OF POWER POLITICS

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2008

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via http://www.csce.gov



                   
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

64-261                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                  
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE                               HOUSE

BENJAMIN CARDIN, Maryland,           ALCEE HASTINGS, Florida,
  Co-Chairman                          Chairman 
RUSSELL FEINGOLD, Wisconsin          LOUISE McINTOSH SLAUGHTER,
CHRISTOPHER DODD, Connecticut          New York
HILARY RODHAM CLINTON, New York      MIKE McINTYRE, North Carolina
JOHN KERRY, Massachusetts            G.K. BUTTERFIELD, North Carolina
SAM BROWNBACK, Kansas                CHRISTOPHER SMITH, New Jersey
GORDON SMITH, Oregon                 ROBERT ADERHOLT, Alabama
SAXBY CHAMBLISS, Georgia             JOSEPH PITTS, Pennsylvania
RICHARD BURR, North Carolina         MIKE PENCE, Indiana

                     EXECUTIVE BRANCH COMMISSIONERS

                   DAVID KRAMER, Department of State
                 MARY BETH LONG, Department of Defense
              DAVID STEEL BOHIGIAN, Department of Commerce
           RUSSIA, GEORGIA, AND THE RETURN OF POWER POLITICS

                              ----------                              

                           SEPTEMBER 10, 2009
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Alcee Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     7
Hon. Chris Smith, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    12

                               WITNESSES

Matthew Bryza, Deputy Assistant Secretary of State, European and 
  Eurasian Affairs...............................................     2
David Bakradze, Speaker of the Parliament of Georgia, Georgian 
  Government.....................................................    17
Paul Sanders, Executive Director, The Nixon Center...............    28
Paul Goble, Director of Research and Publications, Azerbaijan 
  Diplomatic Academy in Baku.....................................    31

 
           RUSSIA, GEORGIA, AND THE RETURN OF POWER POLITICS

                              ----------                              


                           SEPTEMBER 10, 2009

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held at 1:35 p.m. EST in 2325 Rayburn House 
Office Building, Washington, DC, Hon. Benjamin Cardin, Co-
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Alcee Hastings, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Chris Smith, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Matthew Bryza, Deputy Assistant 
Secretary of State, European and Eurasian Affairs; David 
Bakradze, Speaker of the Parliament of Georgia, Georgian 
Government; Paul Sanders, Executive Director, The Nixon Center; 
and Paul Goble, Director of Research and Publications, 
Azerbaijan Diplomatic Academy in Baku.

               HON. BENJAMIN CARDIN, CO-CHAIRMAN,

        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Cardin. The Helsinki Commission will come to order. Let 
me first apologize for the schedule we're going to have to 
follow for today's hearing. The House members are in the midst 
of a series of votes, and we expect that they'll be here 
probably in the next 15-20 minutes.
    I'm required to be on the Senate floor at 2:00. I'm going 
to have to leave here about at about 10 of two in order to be 
able to get back to the Senate floor. We could have a break in 
the action, and if that happens I will recess the committee 
subject to the call of the chair at that time, which will be 
Chairman Hastings when he gets back from the floor. We do 
apologize for that.
    But I must tell you, this is one of the most important 
hearings that the Helsinki Commission is conducting this year 
dealing with Russia, Georgia and the return of power politics.
    I was attending a Foreign Relations Committee hearing a 
little bit earlier today where we were having a hearing on NATO 
expansion dealing with Albania and Croatia. Most of the 
questions at that hearing by senators focused on Russia. Even 
though their impact on Croatia and Albania is not very great, 
what they did during the Bucharest Summit, their influence in 
the judgment made collectively by our NATO allies on extending 
invitations to Georgia and Ukraine is well documented. And 
since that time, of course, with the Russian use of military 
within Georgia, it represents a new chapter in the relationship 
between the United States and Russia.
    We obviously strongly condemn in the strongest possible 
terms Russia's use of military force within Georgia. We also 
are concerned as Russia is gaining more aggression 
internationally they are also internally moving in the wrong 
direction as it relates to the liberties of the people within 
Russia. The freedom of press, the freedom of expression--all 
that is being moving in the wrong direction. One of the 
consequences of what has been done by Russia and Georgia is a 
concern that there could be more independent thoughts within 
Russia in which how Russia responded to Chechnya we are 
concerned we could see a breakout of certain concerns within 
Russia itself.
    For all of these reasons, today's hearing becomes 
particularly important. I think what we're looking for, we're 
looking for a way in which the United States can constructively 
engage Russia. Russia is a major player internationally. We 
need to constructively engage Russia. But at the same time 
we've got to make it clear that we cannot allow or tolerate or 
condone Russia's aggression and the use of military in the 
sovereign country of Georgia.
    That's going to be our challenge, and I really do look 
forward to our witnesses. We have three panels that we will 
hear from today, starting with the deputy assistant secretary 
for the State Department, Matthew Bryza. It's a pleasure to 
have you back before our committee. We would welcome your 
testimony.

 MATTHEW BRYZA, DEPUTY ASSISTANT SECRETARY OF STATE, EUROPEAN 
                      AND EURASIAN AFFAIRS

    Mr. Bryza. Thank you, Senator. It's a pleasure to be here, 
and I'm so pleased to have a chance to speak about something a 
lot of us feel passionately about Georgia and its freedom, its 
democracy, its prosperity--as well as what you talked about: 
coming up with a way to engage with Russia in a constructive 
way, which we believe is possible if we handle what just 
happened in Georgia appropriately.
    As you were suggesting, by simply acquiescing to Russia's 
flouting of its international commitments to recognize and 
support Georgia's territorial integrity as expressed in 
numerous UN Security Council resolutions, we do not do a 
service to Russia. Russia for centuries, as many of the experts 
sitting behind you and in the audience are aware, has had a 
centuries-old foreign policy quest of stabilizing its southern 
border, going back to Ivan the Terrible and even before. 
Therefore, a stable Georgia that's democratic, prosperous, 
successful--even, we would argue, within NATO--is something 
that ultimately help Russia achieve one of its most enduring, 
most fundamental national security objectives.
    For a moment, I'd like to talk about why Georgia matters to 
us. I mean, we all feel strongly about Georgia in this room. 
Then I'd like to address the narrative that's been coming out 
of Russia with which we have some serious differences. And 
finally for a couple of minutes describe where we go from here 
with Georgia and in the region.
    Georgia matters to us. It mattered to us in the beginning 
of the last decade, in the '90s, initially in a strategic way 
because of oil and gas pipelines. That's how many people in 
Washington first drew their attention to Georgia. We were 
successful in working with the Georgian government, with the 
Azerbaijani government, with the Turkish government to develop 
a new generation of oil and gas pipelines that for the first 
time provided a way to get Caspian oil and gas to global 
markets free from either geographic chokepoints, like the 
Turkish Straits or the Straits of Hormuz, and free of monopoly 
power.
    Georgia then came to matter to us even more because of 
security, a second set of interests, especially after September 
11th. And we know that in the case of Iraq, Georgia had the 
third largest contingent in our coalition. And then Georgia in 
recent years has really elevated its strategic importance to us 
because of democracy, because of a remarkable transformation 
that began with President Eduard Shevardnadze--let's be fair. 
He was a leader of heroic proportions. Unfortunately, under his 
leadership, his tiring leadership, the State of Georgia nearly 
ceased to exist. He acquiesced in an attempt by a regional 
strongman, the Ajaran leader Aslan Abashidze, to steal an 
election, contravening an agreement that former Secretary Baker 
had negotiated with the opposition and Eduard Shevardnadze. The 
Rose Revolution followed.
    The Rose Revolution brought to power people that we knew 
well but, not as well as we knew Eduard Shevardnadze. He was a 
darling of Washington, as you recall. But the people that came 
into power through the Rose Revolution were friends whose 
friendships we had developed through their active participation 
in a whole variety of assistance programs here in the United 
States that aimed to strengthen democracy and, well, by design 
build a cadre of young reformers who we hoped someday would 
take over. Suddenly in November of 2003 they found themselves 
in power. And their record on reform has been remarkable. Today 
we learned that this year the World Bank has dubbed the 
Georgian economy the 15th easiest place to do business in the 
world--it was 18th last year--15th in the world. The only EU 
member states that are ahead of it are the United Kingdom, 
Finland, Ireland, and Denmark. So Georgia's doing pretty well 
on economic reform. The World Bank also in 2006 tallied Georgia 
the world's reforming economy.
    On democracy there've been dramatic strides, but there are 
shortcomings. Perhaps we'll talk about those in the question 
and answer session. Difficulties came to the fore last 
November. I had the honor to come up here and testify before 
you in the wake of those events in November of last year.
    Georgia matters to us for these three sets of interests: 
energy, security cooperation, and democracy.
    What's the narrative, my second set of points? The 
narrative that's been coming out of Russia is that Russia was 
obligated to intervene in Georgia to protect its citizens in 
South Ossetia and defend its peacekeepers because Georgia, out 
of the clear blue sky, started to attack Russian peacekeepers 
and the city, or the town, of Tskhinvali in South Ossetia on 
August the 7th. We have said--I have said, but my superiors 
have said repeatedly, we urged the Georgian government not to 
attack the town of Tskhinvali and not to engage the Russian 
military at any cost because there was no way to prevail in 
such a conflict. That's true. That's on the record.
    But there's much more to the story than that. The conflict 
certainly did not begin on August 7th. If we just dial back a 
couple of days, in the early part of August there was a tit-
for-tat exchange of explosions, on August 6th some firing of 
artillery initiated by the South Ossetian side, we believe, and 
rocket-propelled grenades by so-called South Ossetian 
peacekeepers whom we believe were positioned behind Russian 
peacekeepers firing over the head of the Russian peacekeepers 
at Georgian villages and Georgian peacekeepers. Already we saw 
that the Russian peacekeepers were playing a role in providing 
a shield, we believe, to the South Ossetians who were shooting 
at the Georgian positions.
    We also know that atop the chain of command in the South 
Ossetian de facto government were active duty Russian officials 
from military and other services in positions such as the so-
called minister of defense, secretary of the national security 
council, head of the security services, who were running the 
security apparatus of South Ossetia. It appears that the chain 
of command of those South Ossetians firing on the Georgians 
before the Georgians attacked Tskhinvali were Russian officials 
seconded from Moscow. It's an oversimplification by far to say 
that the Georgians attacked Tskhinvali; the Russians intervened 
to protect their citizens and their peacekeepers.
    We should really look at what actually happened and then 
recognize that for months before that Russia had put in place a 
whole series of provocative steps in Abkhazia--including 
declaration that Russia essentially would no longer honor its 
commitments to support Georgia's territorial integrity but 
would instead develop new, specific special relations with the 
separatist leaders in Abkhazia and South Ossetia, as the 
shooting down of an unmanned aerial vehicle, reinforcement with 
combat troops of so-called Russian peacekeepers--a whole series 
of steps that escalated tension in Abkhazia in the period from 
April to June. It led to a very active period of diplomacy with 
our German allies taking the lead within the UN grouping, the 
UN friends group that mediates the Abkhazia conflict.
    Throughout that period, I hate to say, my very professional 
and pleasant Russian diplomatic colleagues did not wish to 
engage, failed to show up to a couple of meetings, and as the 
tension was really increasing in July said they were simply 
unavailable due to vacations. This was in a period of 
heightening tension that culminated, unfortunately, in armed 
conflict in August.
    The narrative is much different from what we've been 
hearing from Russia. It wasn't that the Georgians out of the 
blue provoked something. It's that the Georgians were provoked 
for months, and I would even argue years--and we can go into 
that in the question period.
    Finally, where do we go from here? We believe we need to 
pursue three sets of goals.
    One, we need to support Georgia. We need to support its 
economy, as is evident in this $1 billion economic support 
package we're pulling together. We need to make sure that the 
presence of Russian troops in the Port of Poti and along the 
east-west highway does not strangle the Georgian economy or 
undermine confidence in the banking sector.
    We welcome news that there appears to be a new agreement, 
brokered by French President Sarkozy with President Medvedev, 
according to which the Russians will pull those troops, and 
already may be pulling out the troops from the Port of Poti, 
and will pull back all of their forces by October 1st from 
anywhere in Georgia beyond South Ossetia and Abkhazia. That's a 
step forward.
    That said, it's essential that we remember that we are, 
well, under UN Security Council resolutions, obligated to 
support Georgia's territorial integrity. We cannot simply 
acquiesce to Russian claims that it can keep, as it says, now 
7,600 soldiers in Abkhazia and South Ossetia. That is in sharp 
contrast to a whole line of Security Council resolutions until 
now.
    We need to support Georgia, make sure that the 
democratically elected government of Georgia cannot be ousted 
by this Russian military operation. Our own secretary of state 
had stated how she had heard from the Russian foreign minister 
that, in fact, changing the government in Georgia was one of 
the objectives of these military operations. Cannot oust a 
democratically elected government.
    Secondly, we need to then blunt these objectives of Russia 
including the potential ouster of this democratic government. 
We need to make clear that the east-west corridor on energy, 
which I began talking about, continues to function fine. Even 
the Russian military operations cut the flow of oil to the 
Black Sea coast of Georgia. The Baku-Tbilisi-Ceyhan oil 
pipeline and the South Caucasus gas pipeline continue to 
function throughout these military operations.
    Finally, we need to shore up the neighbors of Georgia but 
also all the states along Russia's periphery. Many of these 
countries worry that somehow Russia has dealt a serious blow to 
stability in the region. They want to make sure the United 
States is going to remain engaged. We are going to remain 
engaged. We are going to do all we can to strengthen our 
relations with Azerbaijan, with Ukraine, with the Baltic 
states, with Kazakhstan. I myself am leaving in a couple of 
hours to go to Armenia, to Nagorno-Karabakh and the rest of 
Azerbaijan in an attempt to lay the foundation for a highly 
energized effort to come up with a framework agreement to that 
conflict within the next couple of months.
    That's it. I've gone, probably, over my time. I just wanted 
to lay out where we hope to go from here, try to correct the 
narrative, and underscore the importance the Georgia to us.
    Mr. Cardin. Thank you very much for your testimony.
    It is extremely disturbing to hear that one of the 
strategies is to unseat the the democratically elected 
government of Georgia. There was almost universal support for 
Georgia's policies in regards to what Russia was doing within 
Georgia. But the ground circumstances being what they were, it 
clearly has an impact on the domestic politics within Georgia.
    I know we have the speaker of the parliament that's with us 
today, but I would like to get your assessment as to what 
impact this has had on the stability of the current government 
in Georgia and the politics within the country itself.
    Mr. Bryza. It appears that Georgians have rallied behind 
their elected government. There have been large-scale 
demonstrations, and statements across the board from former 
opposition leaders, perhaps future opposition leaders, that 
first and foremost it's important that this democratically 
elected government of Georgia flourishes, survives, is not 
threatened. We heard statements from very senior leaders within 
the NATO alliance, some people who had their own questions 
about the way their relations were going with the current 
government of Georgia, who have echoed exactly what I said. 
Given what we had heard and what transpired on the floor of a 
UN Security Council at the very beginning of this conflict, 
it's critical that we all make clear we support this 
democratically elected government of Georgia.
    But I want to make clear that what we support is any 
democratically elected government of Georgia. We may be 
personally fond of or dislike current leaders in Georgia--
that's not relevant. Our personal feelings are not relevant 
about personal leaders in Georgia, with all due respect to the 
speaker of whom everyone in this room I'm sure is quite fond. 
What matters is that the Georgian people elected this 
leadership, and it is the Georgian people that must determine 
the political future of the country. There may be early 
elections. Who knows? There could be referendum. Whatever the 
Georgian people decide in consultation with their elected 
leaders is fine by the United States government as long as it 
is the Georgian people deciding the course of their political 
development.
    Mr. Cardin. I should point out that we did extend 
invitations to both the Russian Federation and Georgia for 
representation here today. We're very pleased that the 
government of Georgia made available the speaker of the 
Georgian parliament for our hearing. We regret that the Russian 
Federation did not accept our invitation and, therefore, we do 
not have a representative from the Russian Federation that is 
with us today.
    You believe that what Russia is doing here as a signal to 
Georgia is meant to be a clear warning to some of the republics 
of the former Soviet Union that Russia intends to be active--
they said they're going to protect Russians wherever they may 
be. I assume that the most direct focus of that statement would 
be the former republics of the Soviet Union, even though 
Russian population is throughout the world including the United 
States. But what impact is this having on the Ukraine? Or what 
impact is this having on some of the other former republics 
that are developing close ties with the West?
    Mr. Bryza. Yes, it's hard to discern what was floating 
through the minds of those decision makers in Moscow when they 
decided to invade Georgia in terms of relations of Russia with 
the other states in its periphery. The impact has been quite 
negative. In Ukraine, in particular, people listen very 
carefully to some statements coming from the very top in Moscow 
suggesting that Russia reserves the right to use force again, 
to, quote, ``protect the rights,'' unquote, of its citizens, 
instant citizens--people who are suddenly issued passports and 
then are dubbed a justification for the potential use of force. 
In Ukraine, of course all eyes are on Crimea. And there have 
been additional statements, rumblings, coming out of high 
levels in Moscow that will perhaps the decision of Nikita 
Khrushchev to cede Crimea to Ukraine was a wrong decision.
    We can only hope that those are no more than bluster, those 
sorts of statements. Those sorts of policies hearken back to, 
actually, a different century. A different century is when the 
invocation of protection of either Orthodox Christians in the 
Balkans or Russian Citizens led to outright warfare. We hope 
these are mere examples of bluster when it comes to Ukraine.
    When it comes to some of Russia's closest allies, let's say 
in the Shanghai Cooperation Organization, again the impact of 
the recognition of the independence of Abkhazia and South 
Ossetia and the invasion of Georgia has not gone over well. If 
you look at the statement that was issued, the communique 
issued by the Shanghai Cooperation Organization, which includes 
the five Central Asian states, Russia and China, it's 
remarkable. It's remarkable in what it doesn't say, which is 
that it does not endorse at all the recognition by Russia of 
the independence of Abkhazia and South Ossetia. It's remarkable 
in what it does say, which is that all states reiterate their 
support for the principle of territorial integrity, which is 
amazing in that every time we try to insert reference to 
territorial integrity at the United Nations, Russia vehemently 
opposes that.
    Mr. Cardin. What good timing.
    I'm going to turn the gavel over to Chairman Hastings. I 
thank you very much for your testimony. Chairman Hastings is a 
very quick learn. He's going to pick up immediately every word 
you said and is going to be ready to challenge the statements 
and properly represent the commission.
    Mr. Bryza. Thank you.
    Mr. Cardin: And thank you for being here. And I apologize 
to the witnesses of my requirement to be on the Senate floor.
    Mr. Bryza: Thank you.

                 HON. ALCEE HASTINGS, CHAIRMAN,

        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Hastings. Secretary, how are you doing?
    Mr. Bryza. Hello, Mr. Chairman, very well, thank you. Thank 
you for a chance to speak here today.
    Mr. Hastings. OK. You just finished testifying, I gather.
    Mr. Bryza. Yes.
    Mr. Hastings. And did the senator get an opportunity to ask 
you some questions?
    Mr. Bryza. He sure did. Yes.
    Mr. Hastings. OK. Well, correct me if I then ask a question 
that he's already asked.
    But let me begin by asking you what if any leverage do you 
feel that we have in dealing with this situation, more 
specifically dealing with the Russian Federation.
    Mr. Bryza. Number one, our leverage is limited in a 
situation in which a country with 30 times the population of 
its neighbor and a military that's nearly 100 times larger than 
that neighbor decides to invade it. Once you get into that 
situation there's, I don't think any country on earth has 
leverage to turn around that calculus.
    Now we are in a different realm--a realm in which, I think 
as our president, our secretary of state has said, Russia is 
forced to weigh some serious costs not only to its reputation 
but in addition to its economy. We have seen already that there 
have been over $20 billion worth of investment that have left 
Russia since this happened. There was a drop in the stock 
market just last night--8 to 10 percent--$200 million plus have 
gone away in the stock market.
    There have been some serious economic impacts. There's been 
serious reputational damage to Russia. I think that in this 
case words really do matter. I think back to my experience when 
I was on the ground in Georgia during the military operations 
when there was serious concern that perhaps there was about to 
be Russian assaults on Tbilisi. It happened three or four times 
while I was there where everybody in the city got very nervous, 
and we wondered what was going to happen. At one point, the 
reports of Russian armor moving toward Tbilisi happened to 
coincide with President Bush's impending press conference. I 
can say I talked to several European journalists who were 
positioned up in hills above the road between the town of Gori 
and Tbilisi who said that within minutes of President Bush's 
strong statement finishing, they saw those armored columns turn 
around and head back toward Gori.
    To me at the time, that was a powerful reflection of the 
fact that words really do matter and that Russia really does 
care about its reputation. It cares about the reputation in 
terms of its investment climate. It cares about its reputation 
in the world. If it didn't, Russia wouldn't want to be a member 
of the G-8. Russia wouldn't say, ``We don't care about being in 
the G-8'' if it really didn't care. If Russia didn't care about 
being in the G-8, it wouldn't mention it at all. It would just 
remain silent.
    We have leverage that can play itself out in a whole series 
of ways--in terms of reputation, in terms of economics. And it 
could go beyond that in terms of other measures that are being 
considered. But for now, we don't want to be sounding like 
we're wagging our finger, raising threats. We don't want to 
burn bridges. We want to escalate, if need be, prudently, 
whatever leverage we might employ, but always with the hope and 
the anticipation that at some point Russia will recognize the 
costs are simply too high of continuing on this path and that 
Russia will fully implement its obligations under the cease-
fire agreement and will restore its respect for Georgia's 
territorial integrity as outlined in so many Security Council 
resolutions.
    Mr. Hastings. In South Ossetia and in Abkhazia in the last 
few days, Russia has increased its number of troops and 
indicated very strongly that they are going to be there for a 
substantial period of time and then are making the efforts in 
the United Nations to have recognition of these two areas. How 
do we assess their actions in that regard, and is it not that 
they are in complete derogation of international norms as it 
pertains to sovereignty when it comes to invading a sovereign 
territory?
    Mr. Bryza. Thank you, Mr. Chair. Yes, we do take that 
position, that Russia has made numerous commitments, again 
under Security Council resolutions to which it signed on, that 
it will support Georgia's territorial integrity and 
sovereignty. And it has blatantly contradicted those 
commitments. It's not ironic, but maybe it's just unfortunate 
that Russia was able to contradict itself after a few weeks 
earlier it invoked the principle of noninterference in other 
countries' internal affairs.
    Mr. Hastings. On that point, do you that they adhered to 
the six-point agreement to the letter?
    Mr. Bryza. No, absolutely not, absolutely not.
    Mr. Hastings. Tell me where they did not.
    Mr. Bryza. Sure. First of all, in point five of the 
agreement, there's talk of additional security measures. What 
those security measures are is clarified in a subsequent letter 
from President Sarkozy and in additional clarifications that 
Secretary Rice negotiated with our French ally.
    Taking that body of information, what is there is a 
statement that Russia has the right to carry out patrols within 
a few kilometers of Tskhinvali, not fix checkpoints either 
along the highway or any road in Georgia, and certainly not 200 
kilometers from South Ossetia out in Poti or in Sinaki. That's 
a blatant violation. We hope that this agreement that President 
Sarkozy negotiated yesterday with President Medvedev will lead 
to Russia pulling out its forces from Poti. We did receive 
initial reports today that Russia has begun removing its 
equipment from around Poti. But at the same time, Russia has 
announced that it is reserving the right to bring in another 
7,600 soldiers into Abkhazia and South Ossetia, they say at the 
request of the leadership of South Ossetia and Abkhazia. Again, 
to us that absolutely violates the territorial integrity of 
Georgia. South Ossetia and Abkhazia remain part of Georgia. 
It's irrelevant that Nicaragua, the only country in the world 
besides Russia, recognized the independence of Abkhazia and 
South Ossetia. These areas remain part of Georgia. Point five 
is where there's a blatant violation of the cease-fire 
agreement.
    In point six, we believe that's violated because by 
recognizing the independence of Abkhazia and South Ossetia, we 
believe Russia is prejudging the outcome of the negotiations 
that are foreseen in that sixth point of the cease-fire 
agreement.
    Mr. Hastings. Secretary Bryza, there are few people that 
have had as much input and involvement in Central Asia and 
Georgia specifically, the Caucasus, than yourself. And I have 
great respect for the extraordinary work in the area of 
diplomacy that you and Dan Fried and others have put forward. 
Last week, the vice president went to Tbilisi and in the course 
of his meetings offered that there would be $1 billion that 
would be in the hands of the Georgian government for purposes 
of infrastructure development.
    I've had a little involvement in these areas as well. It is 
so regrettable that for 10 years, really 11 years, I served on 
a committee dealing with Abkhazia in the OSCE, and we were 
never really able to get the cooperation that we needed to try 
and remedy what was described as the ``frozen conflict.'' I 
have concerns about the $1 billion, and yesterday I filed 
legislation that is missing a component that I intend to amend 
that legislation.
    It's the question that I put to you. One, do we have the 
exacting restrictions or outlines and guidelines as to how the 
money is to be spent? Second, if all of it is to be spent--the 
$1 billion I'm talking about now--for infrastructure and 
reconstitution and humanitarian aid, does that not ignore the 
extraordinary need for a country that has made positive steps 
in democratization to make further steps and to have the needed 
resources in order to be able to do that, in two areas, maybe 
three: judicial reform and/or the development of an independent 
judiciary? I have maintained and will continue to maintain that 
for as long as we promote democracy, if we do not promote 
judicial independence in the various countries that we 
participate in, then we are missing a major component. You and 
I know that before the presidential elections that the media 
was under assault by the Georgian government as is presently 
constituted, or at least some of this administration and more 
specifically President Saakashvili and those that were 
associated with him--closing the television station that you 
and others and I and all of this commission railed against them 
actively about.
    Obviously there's a need to understand that in a democracy 
there is a component called media that needs to be addressed in 
a positive manner, and the further development of civic 
society, a society where people have freedom of expression and 
their rights. If we spend $1 billion, shouldn't we spend some 
money to develop in those areas? Otherwise, you build a road, 
and you still have the same inequities in the society that are 
missing. That was a long way to say that I want to know what's 
going to happen with the billion dollars.
    Mr. Bryza. OK. Thank you, Mr. Chairman.
    As you could imagine, of course I couldn't agree with you 
more about the need to keep working on Georgia and helping 
Georgia strengthen its democratic institutions. Independent 
judiciary of course is crucial to that, as is free media, as is 
the emergence of a viable opposition that will contribute to an 
open and constructive debate on how to improve the country. Of 
course we're going to continue our democracy assistance. In FY 
'08 we've got $14 million budgeted. In FY '09, $15 million.
    Mr. Hastings. That's a pittance.
    Mr. Bryza. Well, it's where we were earlier, and it's what 
we calculated working together with congressional staffs as 
what we thought was a reasonable amount at the time given the 
absorptive capacity. But of course, we're happy to look again 
at it, particularly in this environment now where there's so 
much more money, as you just described, coming in.
    In my testimony, in my statement I should say, I did talk 
about the fact that of the three sets of interests we have in 
Georgia, strategic interests--in energy and regional economic 
cooperation, security, and democracy--democracy has become the 
most strategically relevant of the factors of them all in the 
last couple of years. Of course we have to keep working on 
democracy.
    Let me answer the second part of your question: Where the 
heck is this money going, and how did this come about? It came 
about in conversations we were having when I was in Tbilisi in 
the midst of the military operations with the prime minister of 
Georgia, Lado Gurgenidze, who expressed real concern that it 
was possible the banking system could suffer a loss of 
confidence and that commercial goods shippers could also lose 
confidence and therefore not wish to let contracts or implement 
them and provide Tbilisi and other Georgian cities with the 
goods they need because of the military operations. At the 
time, nobody knew what was going to happen with the military 
operations. Still, when you've got Russian military 
checkpoints, or observation points, around the Port of Poti and 
along roads that are used for commerce, there is a danger that 
the Georgian economy could lose the confidence that has 
sustained it. We already have seen a drop, a severe drop, in 
foreign direct investment. It is FDI that has sustained 
Georgian economic growth, near double-digit growth. If that's 
gone, if the confidence is gone, then the economy can suffer 
seriously, and that can lead to a non-democratic change in 
government.
    The initial, urgent request from the Georgian government 
was for budget support to help them address what the Georgian 
government estimates is about $400 million in immediate needs--
immediate damage, immediate steps that must be taken to get 
people in shelter, to address their basic humanitarian needs, 
to begin repairing some of the damage, and also to sustain 
confidence in the economy.
    We're not doing this all on our own. There's $400 million 
in damage to the Georgian economy. We're going to provide $250 
million quickly. There's still almost half that's left for 
someone else to handle. We hope the European Union is going to 
pick up that part of the tab. Then there's the need to shore up 
confidence in the banking system. The IMF is taking that on 
with a $750 million standby program. We worked actively, of 
course, with the government of Georgia and the IMF to set that 
up. It's not as if the U.S. government is trying to take on the 
task of repairing all this damage on its own. But we wanted to 
make sure that we sent a clear signal to everybody who cares 
about the Georgian economy that the Georgian economy is not 
going to go away.
    Then we also want to provide $150 million worth of 
assistance from OPIC to help with mortgages so that the 
Georgian people can rebuild and purchase new houses. In general 
what we're trying to do besides addressing humanitarian 
concerns is to restore growth in the economy and then, as I 
said, repair the damage.
    That's what it's all going to. We could down into even more 
detail if you wish.
    Mr. Hastings. I understand. Then let me ask you to make a 
submission to us that would be more detailed.
    Mr. Bryza. OK.
    Mr. Hastings. It would be deeply appreciated. In an effort 
not to take up all the time. I do have one more question. I 
have several, but this one is just a question of how diplomacy 
is undertaken and coordinated with those who are involved. 
First, my compliments to Mr. Sarkozy and the EU and those who 
have been involved in working to achieve some positive results. 
I have a concern, and I'll share it from the perspective of one 
who is not a diplomat but that from time to time, I think that 
I have tried, especially in this area, to wear a bigger hat 
than just a policy-maker's. When I first became president of 
the Parliamentary Assembly, my first act was to go to Russia 
and to meet with Sergei Lavrov. Obviously, 31 countries later 
in two years supplied an opportunity to meet with lots of folk 
and, indeed, go back and meet often with our Russian 
interlocutors. When the vice president or Secretary Rice were 
the two of them are recent visitors to Tbilisi and elsewhere in 
Georgia, they did not go to Moscow. I think that's a mistake. I 
understand that there are all sorts of channels of 
communication that are undertaken between parties of interest. 
But as a for example, in the development of the six-point plan, 
Mr. Sarkozy did go to Moscow and did go to Tbilisi. Earlier 
this week, he did go to Moscow, and he did go to Tbilisi.
    I don't understand that missing link. I don't suggest that 
you should have an answer. I communicated to you for purposes 
of carrying it back to those that are going to be involved. 
There are two sides, and probably as many as 20 sides in this 
story, and they have to be communicated with actively and 
directly. Otherwise, I think, we send bad signals. That is my 
story, and I'm sticking to it.
    Mr. Bryza. Thank you.
    Mr. Hastings. Mr. Smith.

                HON. CHRIS SMITH, COMMISSIONER,

        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Smith. Thank you, Mr. Chairman. Thank you for convening 
this very important hearing. Thank you, Mr. Secretary, for 
testifying.
    You know, the week before last, I went to Georgia and spent 
four days on the ground there. I first want to commend our 
ambassador, Ambassador John Teft, for the extraordinary job I 
believe that he has done, is doing, and I hope will continue to 
do. He is a seasoned professional. It came through in all that 
I found that he was doing on the ground, a good manager, and 
really helped to cobble together what was a crisis situation, a 
good response, and I think he represented our country 
extraordinarily well.
    Along the way, while I was there I joined Senators 
Lieberman and Graham and met with President Saakashvili and the 
prime minister and others. We did hear from them in terms of 
their economic needs. They provided us with a detailed road map 
to recovery. I know that they had also met with Senator Biden 
as well as with Chairman of the Foreign Affairs Committee 
Berman and provided them with that same information, and the 
billion-dollar price tag order of magnitude was what was 
discussed as well in our conversations as enough to really make 
the difference and to help keep that confidence in this very 
important democracy and economy.
    I also met with the patriarch, and I want to commend him 
publicly for his bravery in going to the war-torn area and 
retrieving some of the dead individuals. Though he did it as an 
act of bravery, I think he sent a clear message to all that the 
church cares for the dispossessed, the disenfranchised, and in 
this case those who had died a very cruel death.
    I met with a number of the representatives. Human Rights 
Watch had a strong message, especially as it relates to cluster 
bombs. You might want to speak to that. As people flow back, 
they were very concerned that, the Russian cluster bombs and 
those red, looks like toys type of deal, that many people could 
find themselves dead as they're plowing their fields or as kids 
walk in the meadows. I also met with the Red Cross.
    I will say that, and this is with a little bit of regret or 
disappointment, one of the things, the overriding reason why I 
first got on the plane and went to Tbilisi was the fact that 
two young people from my congressional district were in 
Chiatura and were behind the Russian lines, had tried at least 
once to make their way through, were turned back at gunpoint. 
This 7-year-old and 3-year-old, who were not with their parents 
but with the grandparents, were very frightened. When I got 
over there, because of the publicity that was generated about 
these two Evans girls, Sophia and Ashley, all of a sudden a 
number of members of Congress and individual families contacted 
me with a very similar plight of Russian children who were in 
harm's way.
    My first stop was with the OSCE Mission and with the Red 
Cross, both of whom said that they would be more than happy, 
and the Red Cross says ``This is what we do,'' to send in a 
van, a vehicle, with all sides aware of it, and that includes 
the Russians, retrieve these children and bring them to safety. 
To my shock, our consulate general did not know about this 
option. I brought the names to the Red Cross, and several of 
those kids now have been safely extracted.
    I want to thank Eric Fournier, the French ambassador, and 
John Teft again for his marvelous work in helping to facilitate 
this. He went and got the two kids from my district and went 
through what should've been a two-and-a-half-hour trip, it 
turned into a six-hour trip--three hours at one particular 
Russian checkpoint. Not only was he very brave, but he was very 
diplomatic and as the father of the Evans girls said at a press 
conference in Tbilisi, ``Viva la France.'' I think it brought 
us closer together because it was an act of kindness, but it 
was also of courage.
    My hope, Mr. Secretary, would be that we really, stay up a 
little bit later at night and think how we can come up with a 
protocol that when Americans are behind lines, no matter where 
it is--Lebanon, and most recently, and of course this South 
Ossetia and Abkhazia turmoil--that there is an immediate go-to 
to the NGOs. And it seems to me the Red Cross jumps off the 
page as the people who do this and do it extraordinarily well. 
So I would hope there would be a lesson learned on that one 
because my trip might not have been necessary if the Red Cross 
had done that, that job.
    But I did learn a lot. It reinforced much of what I had 
already thought. As Chairman Hastings and I know from Nina 
Berganazi, all those years when she would raise the issue of 
South Ossetia and Abkhazia that this has been a simmering, 
festering problem. The Russians, regrettably, acted like 
bullies and went in and used brute force to drive people out 
and to ethnically cleanse both of these areas.
    I couldn't agree more with the administration that 
territorial integrity is extremely important. The real politic 
of it is that those lines probably are there at least on the 
short term because aggression sometimes does work. But now 
we've got to work very hard, overtime, to secure and show our 
solidarity with, along with our European Union partners, with 
the people, with the leadership of the Georgian government. 
They are unified, very, to a large extent about the importance. 
While there may be individual people who raise issues about 
accountability and that all happens in a democracy. But when it 
comes to this foreign threat, which remains potent and real and 
menacing, they are in solidarity, and we need to be in 
solidarity with them.
    The sooner that legislation moves, the better because we 
have to send that clear signal that we stand in solidarity with 
Tbilisi.
    Thank you, Mr. Chairman.
    Mr. Hastings. Thank you. Any reaction?
    Mr. Bryza. Yes, one reaction, sure. I wasn't privy to, of 
course, the conversation with our consul general. But we were, 
at least back in Washington, looking at all the options 
possible to get access to the Evans girls. And yes, we do, we 
are deeply grateful to Ambassador Fournier for that and for all 
that he does. He is a tremendous ambassador and a real ally in 
every sense of the word. I make it a point every time I'm in 
Tbilisi to spend a few hours with him just to think things 
through.
    But we should also underscore that actually Russia has not 
been allowing international human rights organizations into 
South Ossetia. It's been blocking them, blocking assistance 
convoys. We strongly support the United Nations' and the 
secretary general's push for there to be a humanitarian 
investigation as well as an investigation of how the conflict 
started. But people need to get into South Ossetia to deliver 
humanitarian assistance, to assess what has happened, to assess 
the cluster bomb reports that Human Rights Watch put out. The 
Georgian government has also conceded that it used cluster 
bombs, but only against military targets near the Roki Tunnel. 
We hope that nobody ever uses cluster munitions, but it's 
certain testimony to the Georgian government that it came out 
and came clean that in a military situation it used these 
munitions on the military situation.
    I'd also like to laud the efforts of Human Rights Watch in 
general. They somehow got their people in and were able to 
counter the absolutely untrue narrative coming out of Moscow 
that genocide was committed by the Georgian government, that 
2,000 South Ossetians were killed or murdered. As Human Rights 
Watch found, during the period of the hostilities, they could 
identify 44 people that were killed rather than 2,000. And now 
even independent Russian organizations say it could've been a 
bit over a hundred. Also Human Rights Watch has documented that 
the damage inflicted on Tskhinvali by the Georgian government 
was considerably less than the damage inflicted on the 
neighboring villages of Ergneti and Tamarasheni, the Georgian 
villages, by Russian military operations.
    I'm not here to excuse the Georgian military operations 
against civilians in Tskhinvali. We urged the Georgian 
government not to do that. But Georgia found itself in a very 
difficult situation believing that Russian forces had crossed 
into South Ossetia through the Roki Tunnel, and sensing that 
despite a cease-fire South Ossetians continued artillery fire, 
heavy artillery fire on Georgian positions, and the Georgian 
government thought they were about to lose these villages. 
Again, we urged the Georgian government not to engage in a 
military conflict. The Russians claimed, they were simply 
intervening to save these citizens that they had generated 
through passport issuances and that the Georgians had leveled 
Tskhinvali. As Human Rights Watch has shown, that isn't exactly 
what happened.
    Mr. Smith. One quick follow-up. Your assessment of the OSCE 
Mission--I was impressed with Steve Young, the senior military, 
and Ambassador Hakala They were professional, and they were on 
the job, and they have 20 and upwards of 100 people who will be 
deployed as monitors. They recently got in on September 4th and 
did some monitoring. How would you assess their mission--
whether or not it's enough people, do they have access? 
Secondly, our mission of assessment is there on the ground now. 
How soon before we get some at least preliminary reports of 
what the needs are for the Georgian military as well as the 
humanitarian crisis, too?
    Mr. Bryza. Thank you. I have only the highest possible 
regard for Ambassador Hakala and her team, Steve Young and the 
others. They showed foresight, the wisdom and bravery during 
the military operations when Ambassador Hakala had Steve and 
others out on the road to Gori while tanks were bearing down on 
them to figure out what's going on, to see whether we could get 
access in the international community to these areas of South 
Ossetia for humanitarian purposes. Then a week-and-a-half ago, 
we're on the scene in the village of Akhalgori in the 
southeastern corner of South Ossetia, where there was a high 
degree of tension, and I would credit the OSCE directly for 
helping to reduce the level of tension and therefore 
potentially avoiding further armed conflict.
    Also, we should laud the efforts of the chairman-in-office 
of the OSCE, Foreign Minister Finland Stubb, a fellow 
countryman of Ambassador Hakala, who also has shown strong 
leadership, particularly in fielding quickly an additional 20 
OSCE observers, which will then escalate up to a full hundred. 
We believe that 100 OSCE observers coupled with the 200 or so 
EU observers is plenty to make clear that the point, by the way 
we talked about with the chairman before, point number five in 
the cease-fire agreement that affords Russians additional 
security measures, is no longer valid because there is an 
international mechanism in place with these OSCE observers 
augmented by the EU observers. So that they're enough.
    The problem is that Russia is refusing to allow any 
additional OSCE observers entrance into South Ossetia or 
Abkhazia. We categorically reject that and will continue to 
fight hard to make sure we can get people in to find out what 
happened but to deter people from taking any further actions 
that violate human rights.
    Today, there was a shooting of a Georgian policeman, it 
looks like by, potentially, by a South Ossetian. We hold the 
Russian government responsible. If Russia is occupying these 
areas, it must fulfill the obligations of an occupier, and that 
means law and order and preventing human rights violations. We 
hold Russia responsible for that.
    Our assessment mission, we have EUCOM assessment team on 
the ground now, and we hope that maybe by the middle of October 
they have will completed the assessment. It's a pretty 
thoroughgoing assessment, and they have to look some tough 
choices that the Georgian military itself will have to make 
about whether it wants to focus on homeland defense and/or 
whether it still wishes to contribute to more expeditionary 
ventures, like contributing to the coalition in Iraq or Kosovo 
or Afghanistan.
    Mr. Smith. Again, will you please convey to John Teft how 
grateful I and our delegation was very impressed with the 
professionalism and his leadership. He was excellent.
    Mr. Bryza. Thank you. Few things I could hear that make me 
happier than that. He is one of the best ambassadors I've ever 
experienced in any country. And he's such a human. There were 
some dark moments when we were together as we heard that the 
Georgian line had broken outside Gori, and we thought that the 
tanks were rolling toward Tbilisi. Besides my wife, there's 
nobody else I would've rather had been with in that situation 
because it was--we were. He was thinking clearly, totally calm. 
We were talking about the Chicago Bears, my team, and his Green 
Bay Packers. I guess he made the right decisions because our 
team was kept safe. And then we got an announcement that the 
military operation was over. We all went home, and we were 
smiling.
    Mr. Hastings. Mr. Secretary, just a recommendation and to 
look back in trying to determine what happened, there are 
obviously disagreements. And it would seem to me that an 
independent analysis would help the reconciliation that's going 
to be needed. I recommend, among other things, that OSCE be 
given a role in that. And the reason that I do is very simple: 
There are opportunities for discussions between Russia and 
Georgia and those who are parties that could assist in various 
of the structures of the OSCE including the Parliamentary 
Assembly. Therefore I would hope that such a role is envisioned 
for the OSCE.
    I do want to get to the other panels. But I'd be terribly 
remiss if I did not ask you at least: How do you see the impact 
of this crisis on other former states? And I guess I 
specifically raise Ukraine as a concern. The governing 
coalition has already felt some of the fallout. Give me a snap 
reaction to that, if you would.
    Mr. Bryza. Sure. I agree that there has been a negative 
impact on political stability--if there ever was a lot of 
stability in Ukrainian politics--unfortunately, as a result of 
this. The statements that came out of senior levels of Moscow 
in recent weeks are chilling in that Russia reserves the right 
to use force if necessary to protect its citizens or passport 
holders in Ukraine with a particular focus on Crimea. That's 
simply unacceptable. That is behavior that is not consistent 
with 21st century norms or with membership in the institutions 
of the 21st century, as Secretary Rice has said so many times. 
We have to make clear we absolutely stand with Ukraine. 
Completely, absolutely, unabashedly support its territorial 
integrity. By the way, just as the international community 
stood with Russia all of these years as it invoked the right to 
sustain its territorial integrity within the case of Chechnya; 
although we condemned the way Russia did that. But the 
international community stood with Russia.
    I wanted to make one point about the resolution in Security 
Council a couple of weeks ago on Zimbabwe. Russia vetoed it 
citing noninterference in internal affairs of foreign 
countries, and a couple weeks later invaded its neighbor. That 
is a sharp contradiction, and we can't simply allow that.
    Mr. Hastings. I do have a series of questions, and I'd 
normally do this perfunctorily. But because of the heightened 
importance of matters and the fact that I, and I'm sure the 
International Relations Committee and other members of Congress 
are going to be tooling our legislation supplemental to the 
administration's ideas in this matter, I'd appreciate it if I 
could get as early a response from your good offices as I can.
    Mr. Bryza. Of course. Thank you, Mr. Chairman.
    Mr. Hastings. All right. I'd like now to call the Honorable 
David Bakradze, the speaker of the Parliament of Georgia and 
former foreign minister. I'm more than delighted that you are 
here. I never anticipated that we would have an opportunity--
we've met before on a couple of occasions, but I didn't think 
we would have this kind of meeting.
    The speaker's biography is on the table available to all of 
the persons that are here. I won't go into detail of it for the 
reason that I do want to get on to others as well. But, sir, 
you have the floor.

DAVID BAKRADZE, SPEAKER OF THE PARLIAMENT OF GEORGIA, GEORGIAN 
                           GOVERNMENT

    Mr. Bakradze. Thank you. Thank you very much, Mr. Chairman. 
It's my pleasure and honor to be here. I'll try to be brief in 
my presentation, and then I'm looking forward for the series of 
questions which will help me to bring my case and clarify the 
issues which you think are interesting and important.
    The topic of this presentation is return of power politics. 
It's quite precise description of what's happening and what 
happened in Georgia. And I believe that what happened in 
Georgia is much more important than fate of one small country 
or fate of two tiny separatist enclaves because it challenges 
the basic principles which today constitute the foundation of 
international security. Let me elaborate briefly how we see 
return of power politics based on what happened in Georgia.
    What Russians did in Georgia directly contradicts to the 
principle of inviolability of borders. This is the key 
principle which constitutes today the cornerstone for European 
security. This is the key principle recognized by Helsinki 
Final Act. This is the principle on which OSC as an 
organization is based. By using military force against Georgia 
and by eventually recognizing two Georgian regimes, Russians 
tried to change Georgian border by use of force. That is major 
development since the post-cold war period because this is the 
first time when Russians openly challenge post-Soviet borders 
by use of force. We had many cases in the past when Russian 
rhetoric was focused on border changes, Russians had 
territorial disputes with Baltic countries, and as Secretary 
Bryza mentioned, Russian statement concerning Ukraine and 
possibility of revising borders with Ukraine. We had other 
examples. But it is the first case since the dissolution of 
Soviet Union when Russians actually physically change borders 
by use of military force. And this is something which is a 
significant challenge not only for my country, which is 
immediate victim of that action, but for the entire 
international community thinking that inviolability of borders 
is a key principle on which the security rests.
    Now, with this small accident, let me turn to another 
issue, which is energy. Which is also very important. Because 
what happens, and most of you know the geography, that Georgia 
is the only alternative route for Caspian and Central Asian gas 
and oil resources to Europe. By controlling Georgia, actually 
Russia controls the bottleneck, and by that completely isolates 
Azerbaijan, isolates Central Asian states, and leaves no 
alternative ways of delivery of Caspian and Central Asian 
resources to Europe, which means that Russia will significantly 
strengthen its energy monopoly over European energy resources. 
Energy is the second very important reason why we believe that 
what is at stake is more important than physical control of 
these two small regions.
    The third reason, and very fundamental reason in our view, 
is human rights. Because what happened a few days ago in 
Georgia was actually an ethnic cleansing--ethnic cleansing 
confirmed by all observers who were able to reach the area. I 
agree with Undersecretary Bryza who mentioned Human Rights 
Watch, and that was the organization that confirmed the ethnic 
cleansing in Georgian villages in South Ossetia, confirmed the 
massive looting of Georgian villages, confirmed the massive 
execution of male population and massive rape of female 
population and all the terrible facts happening on the ground. 
That's ethnic cleansing.
    Sometimes people think about Kosovo as a precedent in South 
Ossetia, and I attended yesterday a number of hearings where 
Kosovo was mentioned. So in my vision the difference is very 
simple but very important. In Kosovo, there was international 
intervention which stopped ethnic cleansing. In Abkhazia, the 
reason for ethnic cleansing was Russian intervention. This 
makes these two cases absolutely different. Let me be very 
clear: What happened in South Ossetia two weeks ago was ongoing 
ethnic cleansing which changed the balance of population. What 
happened in Abkhazia in 1993, 16 or 15 years ago, was then 
ethnic cleansing. You know better than anybody else, sir, from 
OSC that this is the ethnic cleansing confirmed by OSC. Three 
summits of OSC in Istanbul, in Lisbon, and in Budapest 
confirmed ethnic cleansing. Those are summit documents having 
signature of then Russian President Boris Yeltsin, then U.S. 
President Bill Clinton, as well as other 53 presidents of OSC 
member countries.
    We have confirmed cases of ethnic cleansing conducted in 
Abkhazia and South Ossetia. The scheme is that in Abkhazia, for 
example, from 75 of 80 percent of population has been expelled 
from their houses--based on ethnicity, based on the fact that 
they were loyal to Tbilisi government, based on the fact that 
they wanted to be part of the Georgian state. One expels 80 
percent of population under the foreign military support from 
homes. Then this same foreign country distributes its own 
passports, and then the citizens of that foreign country--
actually foreign citizens--make a decision whether to be part 
of that state or not. I mean, it's simple but effective but 
very brutal in the human scheme.
    How can Russian citizens make a decision to be part of 
Georgia or not after they expelled 80 percent of local 
population who was in favor of Georgia and in favor of being 
part of Georgia? This is something very, very different from 
Kosovo, from any other case of self-determination. By 
recognizing Abkhazia and South Ossetia what Russia did, 
Russians recognized and accepted results of ethnic cleansing. 
By that, Russia legitimized ethnic cleansing as a way of self-
determination. That is something very dangerous and very bad.
    I think this human rights issue, the fundamental human 
rights issue that ethnic cleansing cannot be seen as a 
legitimate tool of self-determination of any people is at stake 
now. By not following Russia's example, international community 
should confirm that independence cannot be based on ethnic 
cleansing, which is one of the most terrible human rights 
violations.
    Another reason and another case what is at stake and why we 
believe that it's return of power politics is that it's return 
of sphere of influence and buffer zone policies. The biggest 
lesson learned by Europe after the Second World War was this 
new concept of security, which is indivisible and where 
security of small countries matters exactly as much as security 
of big countries.
    By doing so, by invading, by occupying Georgia, by change 
borders of Georgia by use of force, actually Russians bring 
back the policy of sphere of influence because they openly 
claim ``This is our area of our national interest.'' Because we 
have their Russian citizens, because we have historic ties, 
because Russian Empire is present in this region, was present 
in this region for last two hundred years, this is our area of 
influence, so we can do whatever we want in our area of 
influence. If this concept of areas of interest and concept of 
buffer zones and buffer states come back to European security, 
that will be substantial undermining of European security 
because it will bring Europe back to 19th century or beginning 
of 20th century with all the instabilities which were caused 
that time by this concept.
    Last thing which we think is at stake and is more important 
than Georgia, is Russia itself and what kind of Russia we have, 
international community has, as a partner. Absolutely, Russia 
is important partner. Russia is important in terms of political 
cooperation, in terms of economic cooperation, in terms of 
energy cooperation.
    The question is: Is it the right Russia which we are having 
now as a partner? Is Russia which made a decision to send tanks 
to the soil of the neighboring country right partner for Europe 
or for United States. What can be the basement of American-
Russian cooperation? What kind of values, what kind of 
interest, this cooperation can be based if Russian policy 
develops in a way or deteriorates in a way it does? How can 
Russia able to make a decision to send tanks and troops to the 
neighboring country be a reliable partner for United States or 
for Europe?
    This is a fundamental question. How can Russia which signs 
agreements that it withdrawals from Georgia--and I refer to the 
six-point agreement--and confirms that, the presidential 
signature is there and they will implement this, and it still 
is not implemented? It was signed Thursday, 29 days ago, and 
still it is not implemented. How can Russia which does not 
respect signature of its own president, which does not respect 
its own commitment, which does not respect international law, 
how can such Russia be a reliable partner for United States or 
for anybody else?
    It's about Russia, and it's about what kind of developments 
will take place in Russia tomorrow. Because if there is no 
price for what happened in Georgia, this will clearly encourage 
this folkish thinking in Russia, this thinking that the 
bullying policy is successful, and this thinking that Russia is 
too important to pay price for anything which they do. In such 
case, price tomorrow will be much higher than the price today.
    We believe that this is another good reason why this issue 
should be addressed very carefully and based on the long term 
consideration. We're talking about set of measures which I 
believe, I mean, are important. So it's about borders and 
European security. It's about human rights. It's about energy. 
It's about major geopolitical developments in Europe. It's 
about Russia as a future partner and whether Russia can be a 
future partner. It's a set of very important issues which we 
believe make this case an exceptional case. It's the end of the 
Cold War and the case which can, like 9/11, change the entire 
geopolitics in the upcoming years.
    We have all the signs, unfortunately, that the power 
politics at least from the side of Russians is back. The issue 
is how to respond, how to answer, and how to go forward. But I 
guess that will be part of your questions as well as how we 
started and, I mean, obviously you may have some of the same 
questions which you had to Undersecretary Bryza to me, I stand 
ready to answer any questions in good faith and to the 
knowledge I have. I thank you very much for this opportunity 
again.
    Mr. Hastings. Mr. Speaker, thank you very much for being 
here and for your presentation. I'm going to go straight to the 
very hard question, and it is that there have been a 
substantial number of articles in the press on the crisis, and 
in many of those articles U.S. officials claim they've 
consistently warned Tbilisi not to launch a military campaign 
against South Ossetia. Why, then, did President Saakashvili do 
precisely what it is said that the U.S. had warned specifically 
against?
    Mr. Bakradze. Thanks. I regret that Matt Bryza left already 
the room here. I think he could confirm, and I'm talking on the 
record now. It's a very important clarification. We have been 
warned many times, and I confirm that, not to get entrapped by 
Russian provocations, not to respond to Russian provocations, 
and to be careful in our policy planning. That's absolutely 
true, and I confirm. But to my knowledge, at none of the 
meetings was I presented with this specific case of Georgia in 
attacks against South Ossetia or Tskhinvali because there was 
no such plan and no such attacks planned.
    Mr. Chairman, that we had this plan for South Ossetia. 
Three years ago it was endorsed by OSC. Only reason why it was 
not implemented was Russia's resistance. I was myself minister 
for conflict resolution for seven months. And I'm still proud 
that I was one of the officers of the new peace policy in South 
Ossetia that was policy of reconciliation, policy of 
investments.
    What happened in South Ossetia: this tiny region was 
divided in two parts. About half was controlled by Moscow-
backed parties, half was controlled by local administration 
which was loyal to Tbilisi. We heavily invested in that half. 
We invested not in weapons. We invested in building schools. We 
invested in building hospitals. We invested in building discos, 
swimming pools, and amusement parks exactly to show to 
population on the other side that life is not about war, life 
is not about fight, and life is about much better things than 
trenches.
    Our policy was policy of economic attraction and economic 
reintegration, and as one of the authors of that policy I'm 
still proud. And I do believe that we were close to resolution, 
peaceful resolution of conflict in South Ossetia because we had 
all the signs of heavy erosion of the regime in Tskhinvali. And 
that's one of the reasons why Russians changed entire 
leadership in South Ossetia, in Tskhinvali and instead of local 
Ossetian officials, they brought Russian high-ranking officers. 
And as I confirmed words of Matthew Bryza, that all high-
ranking security officials in Tskhinvali were acting high-level 
Russian security and military officials.
    We had all the signs of peaceful resolution of conflict and 
having all that--I apologize for this long prehistory--having 
all that in place, we had never planned any kind of military 
action against South Ossetia. That's true. I confirm that. I 
can tell you that there was no meeting in my memory and in my 
knowledge where we specifically discussed with anybody from 
United States administration the issue of possible Georgian 
military action against Tskhinvali.
    It's absolutely right that we have been warned many times 
not to respond to provocation. We have very good record of not 
responding to provocations, especially starting from March this 
year when we had non-stop series of provocations, sequence of 
provocations, from side of Russia both in Abkhazia and South 
Ossetia.
    But unfortunately what happened on August 7 was no longer a 
provocation. It was already an action. Because when Russian 
military jet intrudes the Georgian airspace, it's a 
provocation, and government may respond or may not respond. But 
when Georgian villages, Georgian civilian population, are under 
heavy artillery bombardment, are under heavy artillery barrage 
and there are civilian casualties in place, this is no longer a 
provocation. This is already and action which needs to be 
addressed by government. I do believe that no democratically 
elected government can sit and wait until there are casualties 
in the civilian population when the civilian population is 
under artillery attack.
    To explain to you that we never had the specific discussion 
because we never had a plan to attack South Ossetia. I think 
the timing itself confirms. This was the timing 7th of August 
when big part of Georgian leadership was on vacation, and 
president himself had his plane ready to depart for Beijing, 
and he has to cancel this trip 20 minutes before it was 
canceled. I think this is a small detail, but again it shows 
that we had no plans whatsoever to start military action that 
day or any other day against South Ossetia.
    Mr. Hastings. But did you start military action?
    Mr. Bakradze. Mr. Chairman, I agree with Matthew Bryza who 
described the sequence of events on the ground. We should look 
into the concrete pretext of events but not single out any 
particular event out of this chain. And that's actually what 
Russians are trying to do at the moment, the Russian propaganda 
machine. What they are trying to do, they are trying to say 
that, while for example at 11 a.m. Georgians did something and 
that was beginning of war. But they fail to mention what 
happened at 10:55 a.m. or 11:05 a.m. That's the sequence which 
shows. It comes how one defines the beginning of military 
action.
    I told you that our villages have been under heavy 
artillery barrage. And that was very dangerous because of the 
civilian population and because of possibly huge civilian 
casualties which we might have on the ground. The same morning, 
we sent our minister for conflict resolution to Tskhinvali with 
the objective to negotiate with Ossetians and to stop somehow 
the fire. But he arrived to Tskhinvali, he was not met by any 
South Ossetian official. The only person whom he met was 
commander of Russian peacekeepers, General Kulakhmetov. And 
General Kulakhmetov confirmed to our minister that Ossetians 
are acting on their own will, and the Russian peacekeepers are 
not able to control what's happening on the ground. He had to 
leave.
    We asked Russian special envoy Ambassador Popov, to go to 
Tskhinvali and to communicate and to talk to local Tskhinvali 
officials to stop this fire. Popov failed to go there, 
justifying this failure that his car was broken and he was not 
able to go physically there. President Saakashvili spoke with 
Finnish foreign minister and asked to send his special envoy as 
soon as possible so that he also goes to Tskhinvali and 
negotiates to stop this fire. Because, again, our civilian 
villages, peaceful villages, were under artillery fire, and 
that was something requiring urgent response.
    This diplomacy failed during the daytime of August the 7th, 
in the evening President Saakashvili declared unilateral cease-
fire. And his hope was that this unilateral cease-fire would 
cause Ossetians to stop firing as well. But it did not happen.
    It's political conflict; it's not ethnic conflict. When 
Tskhinvali leaders started more intensive, and this bombardment 
turned into the carpet bombardment of Georgian villages, that 
is confirmed. I again confirm words of Matthew Bryza who said 
that Human Rights Watch confirmed that Georgian villages near 
Tskhinvali are heavily damaged by this bombardment. When this 
bombardment started to be carpet bombardment, so-called 
indiscriminate bombardment of population, we had to take, 
government had to take a decision to fire back in order back to 
stop this fire.
    But it would still be a local skirmish unless one thing 
which happened on the ground, that which influenced every sort 
of development and that was Russian military call on of about 
150 tanks and about 2,000 personnel, troops, entering through 
territorial Georgia through the Roki Tunnel. We have evidences 
of that. Part of that evidence is two days ago we made 
available to, at this level, to ambassadors accredited to 
Georgia and we're thinking whether to make this evidence public 
or not. At this point, this is still not public, but I can just 
mention that we have radio interceptions confirming Russian 
troops entering Georgian territory in the evening of August the 
7th. This was the turning point. And plus to that, of course, I 
mean, we have the fact of their physical entry to Georgia. This 
was the point.
    I have a question whether massive bombardment, 
indiscriminative bombardment of civilian population, can be 
seen as a beginning of war or not. And if it is not beginning 
of war, why response to that bombardment in order to stop it 
should be seen as a beginning of war. I have a question whether 
intrusion into the territory of the neighboring country 
violating the recognized border and sending 150 tanks and 2,000 
troops to the neighboring country, is this a beginning of war? 
Or, if it is not, why then the following reallocation of 
Georgian troops is a beginning of war?
    It's a delicate question how one defines what happened and 
what was the initial point of the war. In our understanding, 
the immediate reason was massive bombardment of Georgian 
villages and the starting point of war because otherwise I 
still think we could somehow localize the skirmish. But the 
immediate point when the war started was the fact when Russian 
troops entered Roki Tunnel and entered territory of Georgia. 
That was the point when government of Georgia was forced to 
take a decision to about the troop allocation. That's the 
concrete pretext of these August 7 events.
    Mr. Hastings. It sounds, among other things, that there was 
a bit of ingenuity on behalf of the Russians, and your 
government kind of fell into that trap. There are questions 
that still remain, and I understand that. Regrettably, the 
Russian Embassy, who was in fact invited to participate in 
today's hearing, chose not to. I would urge upon them that I 
think that's a mistake. As a former judge, I learned in many 
actions to try and listen to all sides. Hearing one side skews 
the process, and it gives the impression that someone is on one 
or the other side.
    I would hope because of the extraordinary cultural and 
historic aspects that exist between Georgia and Russia that 
whatever the reason was for this particular conflict would be 
mediated toward positive resolutions in the interests of both 
countries. I find it all over the world astounding that people 
that know each other very well--for example, Mr. Putin's mother 
lives in Georgia, you know. And Sergei Lavrov is from the 
Armenian section of Georgia. I could go on and on and on. When 
I'm in Moscow, I don't drink wine but I drink Crouvasier, but I 
see Georgian wine when I'm in Moscow. I see Russian food when 
I'm in Georgia. And so somehow or another cousins and brothers 
and sisters have to stop fighting. I don't know how we 
accomplish that.
    I also note that the realities on the ground have changed. 
It would be difficult. In a totally separate but similar 
situation, yesterday I participated in a hearing dealing with 
Iraqi refugees. In essence what has happened is Sunnis have 
been driven from certain areas and replaced by Shiite. The big 
question is in reintegrating them--and I understand that 
President Saakashvili's goal is still reintegration of South 
Ossetia and Abkhazia--if that is true, then the question is: 
Who wants to be the first person that was removed to return? 
And that was the question that was put to me yesterday: What 
Sunni is going to show up in Anbar and say, ``I'm back now''? 
You know, it's kind of difficult, the situation that we're in. 
I won't go further because the ranking member has questions, 
and we have two other panelists and I'd like to get to them as 
well. Mr. Smith?
    Mr. Smith. Speaker Bakradze, thank you very much for being 
here, for your wonderful testimony. I think it's incisive and 
really gives us the lay of the land from your government's 
perspective, which we need to hear.
    You mentioned a couple of things with regards to massive 
rapes. Is that quantifiable as to how many women were abused in 
that way, and what has happened to those women?
    Mr. Bakradze. I'm afraid I'm not able to give you exact 
figures now. And this is something which still needs to be 
verified and investigated, and we are very open. We invited, 
and we invite all interested human rights organization to come 
and to go to those refugees and to check because, I mean, it's 
difficult because, you understand, it's a delicate issue. Not 
everybody may be willing to describe and to talk about this 
issue. These ladies need careful approach and very balanced 
approach. I mean, if any international human rights 
organizations are willing to help us in that, are willing to 
help our ministry of health and social care in that, we are 
very open, and we ask them to come. But at this point I'm not 
able to give you exact figures.
    What we know, we know evidence is from eyewitnesses that 
the ethnic cleansing was conducted but by so-called Balkan 
model, when we know these irregulars or paramilitaries enter 
the village, and they loot the village. They torch houses. They 
separate male and female population. They take male population 
out of the village, and then some of them are beaten, some of 
them are executed, some of them are left somewhere in the 
forest, and the female population, children, I mean, women, 
elder people are subject to, brutal physical action including 
also the rape. That was the scheme which was used in all 
Georgian villages in South Ossetia that we know from Human 
Rights Watch, that we know from other eyewitnesses, that we 
know from people who went through themselves. But so far I 
cannot give you the quantitative assessment of victims.
    Mr. Smith. In the meeting I had with the Deputy Minister of 
Interior Golodsta she mentioned that there were at least 
stories of women being taken off buses. There was one in 
particular that I guess made the television news while I was 
there. Have any of those women been recovered, brought back to 
safety? Secondly, is there any suggestion that anyone was 
trafficked? As the irregulars and the Russians came in, we saw 
that during the Kosovo crisis, we saw throughout the Balkan 
Wars that exploiters found opportunity to steal away women and 
to put them into human trafficking and forced prostitution.
    Mr. Bakradze. We still have missing persons, so I cannot 
confirm whether these missing persons are victims of 
trafficking or they have been executed or they are just hidden 
somewhere and will show up later. We have missing people, yet 
so far I cannot give you exact numbers. When we find everybody, 
identify everybody, then we will be able to give you more 
detailed information.
    The problem is that so far we are still not allowed to have 
any access to Georgian villages, remaining Georgian villages in 
South Ossetia, and that includes also possibly the remaining 
population being in villages or outside villages in the forests 
of South Ossetia. We still have almost no access even to those 
villages which are outside South Ossetia but are within the so-
called Russian buffer zone, or security zone, as Russians 
describe, so which means beyond the Russian fixed checkpoint. 
That is completely illegal, and I again agree with Matthew 
Bryza on that, that is completely illegal but that is the de 
facto reality, and we do not have access beyond checkpoints. We 
have absolutely no access to South Ossetia itself to check the 
situation on the ground.
    What we know we know from people in mostly international 
human rights organizations or, for example, Council of Europe 
observers who are able to take this trip. We know it from them, 
and we know it from people who managed to escape from there. 
But we still need to go and make evidences ourselves, which we 
are not able to do at the moment.
    Mr. Smith. Are there any preliminary estimates, and perhaps 
you could provide this for the record, as to how many people 
died, how many have been wounded, and how much property damage 
really has been imposed?
    Mr. Bakradze. As of casualties, we know exactly about 
casualties on the side of Georgian militaries and law 
enforcement because besides militaries, our law enforcement 
structures, our police was subject target for very intensive 
attacks. After the conflict when we still had Russian planes 
bombarding Georgian territories. One of their targets was 
usually police stations or police patrols on the roads. That 
was done on intention, and I have every reason to believe that 
it was done in order to break down law and order in the country 
because attacking police can lead to nothing else but the 
breakdown of law and order and the establishment of chaos in 
the country. Police was under attack as well as military.
    We have casualties among militaries as casualties among 
police. All in all, that's about 160 militaries and policemen 
together. As of civilian population, as I said we are still 
missing people and we still cannot identify what happens with 
those who we are missing. Right now we have confirmed deaths of 
up to about 70 people, civilians. But, again, more than that is 
considered as missing population, and we still don't have 
information on them.
    As of economic damage, again, since we cannot access the 
area we may have only very preliminary estimations, and that 
was partly what Undersecretary Bryza gave you. What we know 
that Georgian villages in South Ossetia are completely 
destroyed using the bulldozers and technical equipment. 
Everything is destroyed there.
    Mr. Smith. Now, with regard to the IDPs, that number has 
fallen significantly--and it was over 100,000 when I was there. 
What are they returning to? And how are the ones --what's it, 
over 60,000 still, I think you had indicated earlier--how are 
they faring? Is the humanitarian aid getting to them? Secondly 
on that question, we know when people are put to flight that a 
lot of the individuals, especially the children, suffer 
posttraumatic stress disorder. Are there grief counselors or 
people who can help them cope with, the frightfulness of tanks 
coming down the street?
    Mr. Bakradze. Absolutely. We had 118,000 registered IDPs. I 
say registers because we had actually we had even more than 
that. Now this number is down. It's about 78,000 at the moment, 
and the rest have returned. Because there are three different 
categories of IDPs. One, people from Gori and adjacent Georgian 
towns and villages. Once the Russian occupation of Gori and 
adjacent villages was over, is over, these people were able 
gradually to start return back. Because immediately once 
Russians are out, our police is in, and state is back with its 
basic functions with supplies, with police, with law and order. 
Immediately we have been able to start return of our IDPs from 
those areas, Georgian villages which are in the rest of 
Georgia, not in or in the vicinity of conflict zones. Majority 
of these people are already back.
    The second category of IDPs is Georgian villages located 
between Gori and Tskhinvali. Geographically this is southern of 
Tskhinvali and northern of Gori where there is this so-called 
security buffer zone of Russian military forces, and the people 
there still cannot return. But we expect that at least this 
time Russians will respect their commitment. During President 
Sarkozy's trip to Moscow two days ago, again it was a very 
clear commitment from Russia that they will withdraw this so-
called checkpoint and the security zone. Once Russians withdraw 
from this so-called buffer zone, then we expect that we will be 
able to bring people back to this area.
    The third category of IDPs is IDPs from South Ossetia 
itself. Those are people from mixed villages, from Georgian 
villages, and this is the most painful and vulnerable category 
because unless there is a real perspective of conflict 
resolution, unless this international remediated process of IDP 
return starts, these people will not be able to return back 
because they don't have security guarantees, they have no 
property, they have no security, they have no conditions. We 
can take care of people from Georgian, from the rest of 
Georgia. We will take care of those people from the so-called 
security buffer zone once Russians are out. But as of the IDPs 
from the conflict zone itself, there we will need an 
international directive, international engagement, and the 
beginning of the genuine process of conflict resolution which 
will include the return of IDPs.
    Mr. Smith. I have other questions, but I'll just reduce it 
to: Human Rights Council, have they done anything to 
investigate, to send investigators? We know how the United 
States has responded, many of our European allies, how have 
other countries, particularly in Latin America, Africa, Asia, 
responded to this crisis?
    Mr. Bakradze. We are very open for investigation. We 
offered European Union to set up a special group or commission 
which will look into all the details and investigate happenings 
including, the human rights aspect, which is one of the key 
components for us.
    I had a meeting two days ago. I was in New York. I met UN 
secretary general, and one of the topics of our discussion was 
having UN mission to Georgia, special fact-finding mission, 
which would include humanitarian and human rights components to 
investigate to check what happened on ground. I hope that in 
the near future we will have this special UN team arriving 
verifying the facts on the ground. Plus to that, we asked for 
debates within the UN General Assembly. We asked for debates in 
Council of Europe. We asked for debates in OSC Parliamentary 
Assembly and NATO Parliamentary Assembly. We are very open for 
these debates.
    This is coming back to your comment, Mr. Chairman. We are 
very open for these debates. Truth is on our side, so we are 
not afraid. I really regret that I do not have my Russian 
counterparts here today because I believe truth speaks for 
itself. I would really love to have Russian counterparts here 
to listen to them how they explain what happened. We are very 
open for debates. We are very open for any kind of fact-finding 
mission and investigation, including the one from UN. And I got 
the promise from UN secretary general that this mission will 
take place.
    As of the reaction of the rest of the world, I had 17 
meetings in UN during one day. Mostly I met countries of Latin 
America, Africa, and Asia, and I think they understand. At 
least those whom I met understand that it's not about making 
choice between Russia and Georgia, because in such case we 
would be in a very difficult situation. Russia is very 
important partner. For some countries, Russia is important as a 
trade partner. For some countries Russia is important as a 
security provider. For others there are different reasons. We 
are a small country--we can never compete.
    But what is good is they all understand it's not about 
making choice for Russia or for Georgia. It's about making 
choice for principles. The principles which I said that there 
should be no forceful change of borders. There should be no 
ethnic cleansing as an instrument to self-determination.
    These principles are very important to many countries 
across the globe, because there are many countries having 
territorial disputes with their neighbors. There are many 
countries having separatist enclaves or having ethnic 
minorities on their territory. If today we all allow a 
precedent that a big country can use force and change borders 
of the neighboring country, we are the first victims, but there 
may be a lot of countries in many different of the world 
troubled by that.
    As well as if we allow ethnic cleansing to be recognized as 
a legitimate way to self-determination, I expect that many 
countries will be in trouble after that. What unites these 
countries--and despite Russia's very active diplomacy and 
active pressure, there is still only one country, Nicaragua, 
which says it will recognize Abkhazia and South Ossetia--is, I 
think, the understanding that it's not about Russia or Georgia.
    It's about the basic principles on which the international 
law and order rest today. I hope that with this understanding 
we will be able to show to Russia how far it went to isolating 
itself from the world community--not only from United States or 
European Union, but even isolating itself from its traditional 
allies. Matthew Bryza mentioned Central Asian countries, 
mentioned Shanghai Organization, and I think that was a very 
good example of how far Russia went in isolating itself even 
from its most important and traditionally loyal allies.
    Mr. Hastings. Mr. Speaker, thank you very much. There will 
be a robust debate, I'm sure, in Toronto next week during the 
meeting of the Parliamentary Assembly. A recommendation to you: 
After the attack on the United States on September 11th in 
2001, the U.S. government formed a commission to investigate 
those tragic events, and the commission members included very 
distinguished figures from the major parties, and I would urge 
also the possible participation of non-partisan representatives 
of civil society. You might consider that while you're about 
your business. But I thank you so very much for your 
participation.
    Mr. Bakradze. Thank you very much, Mr. Chairman. If I just 
may end with responding to your comment about cooperation with 
Russia. Of course, I can confirm even today in this critical 
time that we are ready to cooperate with Russia. But this 
cooperation should be based on the mutual respect and mutual 
recognition of sovereignty, territorial integrity and 
legitimate interests.
    Mr. Hastings. Interesting that you should put that in. That 
first meeting that I said that I had with Foreign Minister 
Lavrov, the first statement out of his mouth was, I appreciate 
the fact that we are dealing in the arena of mutual respect. 
I'll never forget it. I'll remind him if I get an opportunity.
    Mr. Bakradze. It's not our guilt that we are located next 
to Russia as country. It's not our guilt that we are 5 million 
but not 500 million. And it's not our guilt that unlike some 
people in Kremlin, we don't see dissolution of Soviet Union as 
a disaster and tragedy but we see it as a moment of happiness 
which gave us freedom, life to many Central and Eastern 
European countries. Unfortunately, or fortunately, we will not 
compromise on those values. I will never say dissolution of 
Soviet Union is a tragedy.
    Mr. Hastings. All right. I'm going to need to move on to 
the next panel. Thank you so very much.
    Mr. Bakradze. Thank you very much.
    Mr. Hastings. At this time, I'd like to invite the 
executive director of the Nixon Center, Mr. Paul Saunders, and 
Mr. Paul Goble, the director of research and publications of 
the Azerbaijani Diplomatic Academy in Baku. Toward that end, I 
would appreciate it Mr. Saunders if you would proceed, and then 
you Mr. Goble. If we have time for questions--the only reason I 
say time is the fact that we are expecting a vote real soon. 
I'll listen to you all as will the ranking member, and then 
we'll try to get some questions in if time permits.
    Mr. Saunders.

       PAUL SANDERS, EXECUTIVE DIRECTOR, THE NIXON CENTER

    Mr. Saunders. Thank you very much, Mr. Chairman, also to 
the ranking member, for the opportunity to be with you here 
today. I'll try to be very brief and maybe just hit a few high 
points from my written statement.
    The first point that I'd like to make--Mr. Bryza and the 
previous witness, the speaker of the Georgian Parliament, went 
through the long and very complex chronology of events that led 
up to the events last month. I won't try to do that. I won't 
try to assess what both of them said. I would like to make one 
point, however, and from my perspective there are really only 
two things that are important about what happened. One is that 
Russia clearly had prepared well in advance for this kind of 
situation and was waiting for the right opportunity. The second 
is that the government of Georgia and President Saakashvili 
personally knowingly gave them that opportunity against the 
advice of American officials. Without going into all of the ins 
and outs, that's what I really think the central point is 
there.
    Next, I'd like to focus on what lessons should we draw from 
this experience, because I think there are a number of 
important lessons. And after touching on those, I'll try to 
very briefly talk about some of our policy options.
    First of all, frankly, I think the Bush administration has 
profoundly overpersonalized our relationship with the Georgian 
government. This was a problem, of course, that executive 
branches under both administrations tend to have. But I really 
think there was an undue focus on President Saakashvili. There 
was excessive and needless praise of President Saakashvili. The 
president of the United States on March 19th when Mr. 
Saakashvili was meeting with him in the Oval Office said that 
he admired the president of Georgia who just a few months 
before, as we all remember, had declared a state of emergency, 
forcibly dispersed protesters, shut down TV stations.
    And certainly the administration considers Georgia a friend 
of the United States, but I think it's absolutely unnecessary 
for the president to say he admires the president of Georgia, 
and it leads Georgian officials to perhaps think that they have 
a relationship with the United States that the facts 
demonstrated they don't. That's dangerous.
    Secondly, I think our administration needs to be much more 
careful in how they put American credibility on the line. Our 
reputation in the former Soviet Union, to my mind, has been 
very seriously by the events that transpired. How? The United 
States accepted from Georgia, from its very tiny army, 2,000 
soldiers to send to Iraq. Georgia sent soldiers to a combat 
zone to help the United States. In Georgia's hour of greatest 
need, the United States did not reciprocate that commitment. 
I'm not arguing that we should have. I'm arguing that the 
administration accepted that assistance from Georgia without 
thinking through some of the very predictable expectations and 
consequences that it could have. This conflict in South Ossetia 
and Abkhazia, they existed at that time. The administration, to 
my mind, should've thought more carefully about that.
    Thirdly, I think we should all learn from this that Russia 
has a lot more at stake and is willing to pay a much higher 
price to advance its interests on its borders than the United 
States does. That doesn't mean that the United States should 
allow Russia to create a sphere of influence. But it does mean 
that we need to be extremely careful in the kinds of 
commitments that we make, the kinds of expectations that we 
create, and we really need to calibrate our policy to what 
we're ultimately going to be prepared to do.
    Fourthly, I think we've learned some lessons about 
precedents and vetoes. The Bush administration and others have 
been saying very energetically that Kosovo is not a precedent, 
that Russia doesn't have a veto over Georgia joining NATO. The 
problem with that line of argument is that, we get to decide 
what we think is a precedent. We get to decide what we think 
our national interests are. We get to decide what we should do 
about that. We get to decide how to explain it. We don't get to 
decide what other people think is a precedent. We don't get to 
decide how they react to actions that we take. They get to 
decide. Russia doesn't have a veto over Georgia joining NATO or 
not joining NATO. It doesn't, and it shouldn't. But if we 
pursue that course of action, then we need to understand that 
the United States doesn't have a veto over how Russia decides 
to respond. I think that's something that has been, 
unfortunately, demonstrated very clearly during recent weeks.
    Finally, one other lesson--and it's useful to reflect back 
on the 1990s and NATO enlargement in the 1990s, because NATO 
did something very important at that time which was to insist 
that aspiring members resolve their internal ethnic conflicts 
if they wanted to be part of NATO. Because the alliance, did 
not want to import these problems into its membership. Perhaps 
in retrospect we should've thought a little bit more about that 
before pursuing the course that was taken.
    Our policy: What do we do about this situation? I think 
there's a short-term element to it. I think there's a long-term 
element to it. In the short term, we need to make the best of a 
bad situation. We need to salvage what we can of American 
credibility in this region. To that end, actually I would 
broadly agree with the position that the administration has 
taken. We need to provide support to Georgia. We need to 
continue to articulate our support for Georgia, hopefully more 
for Georgia and much less for President Saakashvili as we do 
that.
    We need to prevent a situation in which the Kremlin 
believes that it has deposed the Georgian leadership and that 
we did nothing about it or were not able to do anything about 
it.
    We also need to ensure that Russia follows through on its 
commitments and the agreement of the last couple of days to 
have the troops out of these special security zones by October 
1st.
    Finally, we need to try to salvage as much as we can of the 
existing post-Cold War security architecture in Europe. And to 
do that, I think we're going to have to be very careful. I 
think that the administration, again, has been correct by all 
accounts in making a determination that unilaterally attempting 
to punish Russia won't be a successful course of action.
    Over the longer term, we have to do a number of different 
things. First of all, we cannot condone and should continue to 
express our displeasure with what Russia did in South Ossetia 
and Abkhazia. But I don't see how we get those two territories 
back and make them a part of Georgia again. And, you know, we 
don't need to announce that. There doesn't need to be a press 
release from the State Department. But I think we need to 
acknowledge that to ourselves as we move forward and to be 
honest with ourselves about what our capabilities are and what 
they're not. We can't make this issue a defining issue in our 
relationship with Russia. We have too much else at stake: 
nuclear proliferation, arms control--there's a long list of 
other issues.
    Secondly, I don't know whether or when President 
Saakashvili will leave office. Matt Bryza left open the 
possibility that from his perspective it could be before 2013 
when his term runs out. Whatever happens, I don't think we 
should be excessively concerned when Mr. Saakashvili eventually 
leaves the scene. I think there are a number of other 
politicians in the Georgian leadership who are committed to 
democracy, committed to friendship with the United States, and 
it would not be a tragedy to see Mr. Saakashvili go.
    I'll be very brief and just give kind of telegraphic points 
for the last few things here.
    I think we need to have a real debate about NATO, and I 
think the Congress can play a very important role in that. I 
don't think we've had a serious debate about NATO. I think we 
had a debate about enlargement instead of a debate about NATO. 
So that's one thing.
    And finally, you've already, Mr. Chairman, mentioned the 
need to engage with Russia. I think we do need to engage with 
Russia. We need to come up with some creative new ideas for a 
security architecture in Europe that is going to be 
sustainable. To be sustainable, they have to buy into it.
    So I'll wrap it up there and happily turn over the floor.
    Mr. Hastings. I appreciate that very much. For the record, 
I had an opening statement that I did not offer, and I'll 
accept it by unanimous consent. Any opening statement that Mr. 
Smith may have should be made part of the record as well as if 
Senator Cardin didn't. I guess he had some things to say, but 
his official statement will be made part of the record.
    Mr. Goble, thank you so much for being patient. It's hard 
to apologize for working, but we do have to vote.

 PAUL GOBLE, DIRECTOR OF RESEARCH AND PUBLICATIONS, AZERBAIJAN 
                   DIPLOMATIC ACADEMY IN BAKU

    Mr. Goble. Mr. Chairman, thank you for including me. It's a 
pleasure to appear before you and Congressman Smith again after 
so many years in a very different capacity. Because I've 
prepared written remarks, I want to just hit several of the 
high points.
    First, two preliminary observations. What has happened in 
Georgia is a disaster that was waiting to happen and that can 
be repeated elsewhere across the former Soviet space. The 
reality is that the border system that was created in Soviet 
times was intended to create tension and to justify 
authoritarianism.
    In 1991 the United States welcomed the end of 
authoritarianism but also said the borders could never change 
because we were concerned that that could tear things apart. 
The consequence of that was to delay this problem. But it is 
going to be a worse future, not a better one.
    Second, I would like to call attention to one specific 
aspect of this conflict that has not been hit very hard. We 
talk a great deal about the territorial integrity of the 
Republic of Georgia. If the Republic of Georgia has territorial 
integrity, or did, internationally recognized, that included 
both South Ossetia and Abkhazia, the fact is that the actions 
of President Saakashvili, however foolish they may have been, 
were in full congruence with the right of a government to act 
on its own territory. The actions of the Russian government 
were a violation of international law because they went across 
an international boundary.
    It is important that we do not make a distinction between 
territorial integrity that we're talking about now and 
territorial integrity which existed prior to August 1st. That 
has tended to get lost in most of the media and most of the 
discussion in this city.
    Now, there are many lessons, and those are what I want to 
end with to be very brief. A large number of countries are 
going to have to learn lessons from this conflict. Georgia, 
along with its neighbors, is going to have to learn one that 
many of the post-Soviet states have--and that is that 1991 did 
not repeal history, and it did not repeal geography. It's best 
that you try to find a way to live with your neighbors, as 
unpleasant as they may be and as much as you hate them for what 
they have done. That's just a reality.
    The Russian Federation, however, is going to have to 
learn--and how well we can teach it is a big question--that it 
cannot be a full member of the international community if it is 
not willing to play by the rules. The fact is that invading 
other countries, like killing people, is wrong. It is terribly 
important--many references have been made to getting to the 
essentials. The reality is that the Russian government engaged 
in an act of aggression across an international boundary. That 
doesn't mean we nuke Moscow, but it means we recognize the 
fact. And trying to make this into a moral equivalency does not 
justify an act of violation of international law of the kind 
that the Russian government has engaged in.
    But I would like to end by just giving you what I see are 
the five lessons we should learn and give you three policy 
prescriptions that I think are essential
    First, despite all our hopes and expectations, 1991 was not 
the end of history. Ending communism didn't end conflict, and 
the fact is we're going to have more conflict in this part of 
the world in the future than we did in the past. As much as 
people don't want to believe that, that's going to happen.
    Second, and I will second Paul Saunders' comment, we have 
got to end our personalization of relations with foreign 
leaders. It is not only that we have sometimes sacrificed our 
own ideals and interests in the name of maintaining a 
friendship with the leader of a large country--the Russian 
Federation--but we have found ourselves made hostage to the 
actions of a leader of a smaller country who thinks we will 
have no choice given what we have often said. We have been made 
hostage, in this case and some others.
    Third, we need to learn how to deliver clear and consistent 
messages to leaders and populations. The fact is we have 
delivered a consistent message to Georgia over this period. We 
have had statements about how we always defend our friends from 
very senior people, and we have had specific warnings not to do 
it. We have had people going in and providing military 
instruction, and we have said, ``But you don't want to use 
these forces if someone invades your country.'' The fact is 
that if you don't have a common that is delivered the same way 
every time, you have a problem. There's another way about 
delivering a message: It is one of the great tragedies, and 
it's one of the reasons I'm no longer in the U.S. government, 
that we have destroyed U.S. international broadcasting; we lack 
the ability to reach the peoples of this area. The Voice of 
America, Radio Free Liberty, all need to be expanded. They're 
more necessary now than were 25 years ago, and unfortunately in 
the last 10 years we have watched them be destroyed. That's one 
of the reasons I took early retirement and was in Estonia, 
where I had the pleasure of meeting you, Mr. Chairman, and am 
now in Azerbaijan, because I'm trying to what I can't do on the 
airwaves by being there. This is critically important.
    Fourth, we need to insist on universal standards of 
international behavior. That has two implications, neither of 
which is entirely welcome. First, we cannot credibly ask other 
people to obey the rules if we don't obey the rules ourselves. 
We have to be very careful when we take action that we don't do 
things that violate the rules, because that subverts our 
possibility of asking anyone else to behave. We have done that, 
tragically, a number of times. Second, we need to understand 
that when the Russian government currently talks about double 
standards, and does all the time, the Russian government 
complains that we're engaging in double standards. The fact is 
the Russian government wants to be treated by a different 
standard than anyone else. It wants us to recognize that it has 
a right to use military force across an international boundary, 
to illegally distribute passports in countries which do not 
have an agreement with dual citizenship or even 
constitutionally ban it, as is in the case of Ukraine. But the 
Russians insist that because they're big and important that has 
to be.
    Fifth, we need to recognize something else. All too many 
times in the last month we have heard people talk about what's 
going on and what we should do with respect to the Russian 
Federation in terms of the risk of a new Cold War. Let me tell 
you that invocations of a new Cold War are precisely designed 
to force the United States not to do anything. It is quite 
amazing to me that with every other country in the world we 
know we have things we agree with, and we know we have things 
we disagree with. That's going to be true with Russia, too. It 
was even true during the Cold War. Invocation of a new Cold War 
is a way, an act, of public diplomacy intimidation against the 
United States people and against the United States government.
    I would recommend three things that we need to do to get 
out of this current problem we're in. First, I agree that we 
are not going to see South Ossetia and Abkhazia reincorporated 
immediately. That does not mean there isn't something we should 
do. In 1932, Secretary of State Simpson announced that it was 
American policy never to recognize border changes brought about 
by force alone. That led to the non-recognition policy, which 
was declared in 1940, for Estonia, Latvia, and Lithuania. It is 
my view that the United States government should immediately 
proclaim a new non-recognition policy that the United States 
does not recognize the forcible inclusion of these countries by 
military is a violation of a policy that we are supposed to 
have had online since 1932. It is something that would be easy 
to do, would be fully understood, and it would signal to those 
people and to the Georgian people that we have accepted a 
reality even if we can't change it immediately.
    Second, we need to expand our ties with the peoples of this 
entire region and our expertise on these areas. It is a tragedy 
how few people there are who speak Georgian, who have lived in 
Georgia, who know the region or any of these countries. It 
should never happen again, as it did during this crisis, that 
the Department of State should announce that it could not spare 
Mr. Bryza to take a particular trip because it didn't have 
anyone else on whom it could count here in Washington for 
expertise. When you don't have a bench, it's really tough to 
field the first team. But we have got to address that. I 
believe the way you do that is to rebuild our area studies 
programs by the revival of the National Defense Education Act 
Title VI program which was responsible for a lot of us getting 
trained.
    Finally, it seems to me that recognizing that the borders 
of the republics of the former Soviet Union were drawn in order 
to create problems rather than to resolve them that the United 
States needs to begin to understand that the right of nations 
to self-determination is also important and not just border 
stability. When we declared border stability was above 
everything else in February of 1992, when we said that we would 
never recognize any secession, we set in play the forces that 
ultimately led to the destruction of Grozny in the genocide of 
the Chechen people, first by Mr. Yeltsin and then by Mr. Putin. 
It is in many ways our fault because we sent the signals.
    I believe we need under the current circumstances to begin 
to think about how we create mechanisms of negotiation and of 
conversation so that the rights of nations to self-
determination, the right of peoples to democratic choice, will 
be respected rather than sacrificed as they have sometimes been 
in recent years on the altar of territorial stability. But if 
we're going to say territorial inviolability, then let us make 
it very clear that if a country does something on its own 
territory we have said that's its choice, instead of as we have 
done in the Georgian crisis acting as if Moscow has an equal 
right to be on the territory of the Republic of Georgia as the 
Republic of Georgia government has. This is in no way an 
endorsement by me of the some of the decisions that Mr. 
Saakashvili has made with respect to the media, with respect to 
military action, or with respect to his moves against the 
opposition.
    Having said that, we need to take seriously that Georgia is 
a full member of the international community, and that if we're 
going to recognize the rights of states and the territorial 
inviolability of their borders, then Georgia had a right too, 
and it has been brutally violated by the Russian Federation and 
not because of anything the Georgian government did, however 
unfortunate it was.
    Mr. Hastings. I thank you, Paul. We're going to have to 
proceed apace to vote. I would like to make it clear that all 
of our testimonies will be on our Web site, and your full 
written statements will be included therein. It would be my 
hope that, to the extent that it would be possible, that I 
could have a casual meeting with either or both of you, even if 
it requires coming to Estonia. Thank you.
    Mr. Goble. It would be nice. Thank you.
    Mr. Saunders. Thank you, Mr. Chairman.

                                  [all]

                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
